Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




            MEDICAID
    Claims Processing Safeguards




                   JUNE GIBBS BROWN
                    Inspector General

                        JULY 2000
                      OEI-05-99-00071
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William C. Moran,
Regional Inspector General and Natalie A. Coen, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

John M. Traczyk, Project Leader                         Jennifer Antico, Program Specialist




        To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei/
                        EXECUTIVE                       SUMMARY

PURPOSE

         This is the second of three reports describing Medicaid program safeguards. This report
         discusses claims processing safeguards. The first report discusses proactive safeguards
         and the third report discusses post payment safeguards.

         This report is intended to provide information about and increase awareness of Medicaid
         claims processing safeguards. Claims processing safeguards ensure that claims submitted
         for payment are properly adjudicated.

CLAIMS PROCESSING SAFEGUARDS

         System Access Safeguards validate that the claims submitted for payment are from

         providers authorized to bill Medicaid. Claims from unauthorized providers, are rejected

         from processing. 

         Claims Adjudication Safeguards help to ensure that the services listed on a claim are

         covered, medically necessary and properly adjudicated. They include prepayment provider

         flags, prepayment procedure flags, concurrent reviews and fully automated computer

         edits.

         Manual Claim Reviews including utilization and medical reviews are conducted by

         trained specialists. Staff specialists review specific claims with established program and

         medical policy, with previously paid claims, and with other information to decide if

         Medicaid should pay for the services. 

         Audits in the report refers to those manual functions (i.e., pricing and reviews of

         certificates of medical necessity) that do not require decisions of a medical nature. Audits

         help identify patients who have other health insurance or who may be eligible for

         workman’s compensation or other payments to cover the cost of their medical care.

         Payment Suspensions prevent financial losses while questions concerning overpayments,

         fraud and abuse are resolved.





Claims Processing Safeguards                      1                                     OEI-05-99-00071
OPPORTUNITIES FOR IMPROVEMENT

         Based on our prior studies and information gathered during this study, we would
         encourage States to consider the following opportunities for improving program
         safeguards:

         <	
         <         Establish a system that identifies all third party billers/agents and the
                   physicians using their services. The ability to know who is authorized to bill on
                   behalf of a provider can help eliminate the misuse of provider numbers by clinics
                   and third party billing agents.

         <	        Reduce the “hassle factor” by providing providers with a complete list of all
                   critical errors on a claim. Medicaid systems should identify all fatal errors on a
                   claim and notify the provider of all errors at one time. This would help avoid third
                   and fourth claim submissions.

         <	        Use fatal reject data and edit data to identify problematic providers. States
                   have the opportunity to use claim reject and edit data to improve claim processing
                   safeguards, to clarify policies and to identify providers who may need additional
                   training on Medicaid policies and claim submission requirements.

         <	        Use edit, utilization, medical and audit data to identify problematic policies
                   and procedures. A number of States in our sample have successfully re-
                   engineered their Medicaid policies and procedures using information obtained from
                   edits.

         <
         <	        Improve State Agency employee and contracted workers sensitivity to
                   potential fraud and abuse issues by providing ongoing training. With proper
                   training the role of Medicaid staff in spotting and reporting of potential fraudulent
                   and abusive practices can be improved.

         We intend to do additional in depth studies on proactive safeguards used by States.


AGENCY COMMENTS

The HCFA believes that the opportunities for improvement described in this report provide
valuable information that will be shared with the State Medicaid programs.




Claims Processing Safeguards                         2                                      OEI-05-99-00071
                           TABLE OF CONTENTS



                                                                                                                  PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


CLAIMS PROCESSING SAFEGUARDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         System Access Safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

              Electronic Claim Submission
              Claim Rejection

         Claims Adjudication Safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

              Prepayment Provider Flags
              Prepayment Procedure Flags
              Concurrent Reviews
              Automated Edits

         Manual Claim Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

              Utilization and Medical Claim Review

              Audits


         Payment Suspension . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





Claims Processing Safeguards                                3                                              OEI-05-99-00071
                               INTRODUCTION


PURPOSE

         To provide information about and increase awareness of Medicaid claims processing
         safeguards.


BACKGROUND

         Medicaid is a health insurance program for certain low income and needy people. Within
         Federal limits, each State decides eligibility, benefit coverage, administrative practices,
         reimbursement and operational resource requirements. About 70 cents of every Medicaid
         dollar goes to institutional providers (hospitals, nursing homes). Thirty cents pays for
         non-institutional services (physician services, laboratory and radiology). Federal law
         requires States to pay for services provided by certain institutional providers and non-
         institutional providers. State may elect to offer additional services such as dental care,
         podiatric care and prescription drugs just to name a few.

         The Health Care Financing Administration (HCFA) is responsible for administering
         Federal matching funds to the States and for legislation and regulations affecting Title
         XIX (commonly referred to as the Medicaid program). The HCFA also provides
         guidelines, technical assistance and periodic assessments of State programs. More than
         36 million recipients are enrolled in Medicaid. In 1991, 90 percent of these recipients
         were enrolled in fee-for-service (FFS) programs. By 1998, the number of recipients in
         FFS had decreased to 46 percent and enrollment in managed care plans increased to nearly
         54 percent. Nearly $169 billion was spent by the Federal Government and the States on
         Medicaid benefits in Fiscal Year 1998.

         State Medicaid programs are administered by State Agencies or contractors hired by the
         State. Most States also have a Medicaid Fraud Control Unit that handles investigations
         into allegations of fraud and abuse.

         States are required by legislation to make every effort to eliminate waste and illegitimate
         program expenditures. States are required to develop payment safeguards designed to
         protect their Medicaid funds from unscrupulous and fraudulent providers.




Claims Processing Safeguards                       4                                     OEI-05-99-00071
METHODOLOGY

         We visited or interviewed over the telephone agency(ies) responsible for administering the
         Medicaid program in the following eight States:

                   California          Florida                Illinois
                   Louisiana           Maryland               Oregon
                   Pennsylvania        Texas

         These States were selected for site visits because they account for nearly half of all
         Medicaid expenditures. They were also chosen for their geographic location. Our site
         visits were conducted during the spring of 1999. During our visits, we discussed program
         safeguards used by the State’s Medicaid program. We spoke to State Agency officials
         and, when appropriate, to State subcontractors.

         Our discussions focused on Medicaid fee-for-service program safeguards. We have not
         attempted to assess the effectiveness of each safeguard. State Medicaid programs use
         many different terms to describe safeguards built into their systems. We have divided
         Medicaid program safeguards into three categories (proactive, claims processing and post
         payment safeguards).

         This is the second of three reports on Medicaid safeguards. This report discusses claims
         processing safeguards. Claims processing safeguards are those measures taken to ensure
         that claims submitted for payment are properly adjudicated. Our first report discussed
         proactive safeguards. Proactive safeguards are those measures taken to prevent fraud,
         abuse and waste before a claim is ever submitted for payment. The final report discusses
         post payment safeguards. Post Payment safeguards are measures taken after a claim has
         been processed to ensure proper payment.

         The primary purpose of these reports was to compile a catalog of program safeguards
         used by State Medicaid programs. Every effort was made to prepare a comprehensive and
         complete list. Some disagreement as to what constitutes a program safeguard may exist
         and some safeguards may have been overlooked. Fragmentation of responsibility in many
         State Medicaid programs often makes it difficult to reach all of the people responsible for
         Medicaid program safeguards. Consequently, States, their subcontractors and others may
         have information about other safeguard measures not mentioned in this report.




Claims Processing Safeguards                      5                                    OEI-05-99-00071
                        CLAIMS PROCESSING
                           SAFEGUARDS

         Providers, who treat Medicaid patients not enrolled in a managed care plan, must file an
         electronic or paper claim to receive payment for their services. Claims provide
         information about the patient and the provider. They provide a listing of the medical
         treatments and services provided to a patient. They also provide diagnostic information to
         justify the medical need for the services/treatments being billed.

         Claims processing safeguards, as we have defined them for this inspection, do not protect
         patients from receiving uncovered, excessive or medically unnecessary procedures and
         services. Claims processing safeguards only affect the claims submitted for payment after
         a patient has received services. They are designed to facilitate cost effective processing of
         claims and to protect Medicaid funds by identifying claims that require additional
         development before they are adjudicated for payment.

         For purposes of this report, we have divided claims processing safeguards into two
         groups. The first group consists of access safeguards that ensure that a claim submitted
         for payment is from an authorized provider and contains sufficiently accurate information
         to process the claim. The second group of claims processing safeguards ensures that the
         claims accepted for processing are properly adjudicated.


SYSTEM ACCESS SAFEGUARDS

         Claims processing safeguards protect Medicaid systems from unauthorized access and
         help to ensure proper payment for medically needed services. They are also used to detect
         potentially fraudulent and abusive practices.

         Before claims for services are adjudicated for payment, they are scrutinized by a series of
         claims processing safeguards. Computer systems validate that the claims submitted for
         payment are from providers authorized to bill Medicaid. Claims from unauthorized
         providers, are rejected from processing. Claims submitted by billing agencies and other
         third parties on behalf of a provider must also have valid provider numbers or they will be
         rejected from Medicaid claims processing systems.

Electronic Claim Submission

         California, Florida, Louisiana, Maryland and Texas believe that the safeguards currently in
         use for electronic claims submission are inadequate and do not adequately protect their
         programs from fraudulent and abusive billers. These States believe that they know little
         about subcontractors submitting claims on behalf of physicians and other providers.


Claims Processing Safeguards                       6                                     OEI-05-99-00071
         Consequently, the exact number of providers using billing agencies, clearinghouses,
         subcontractors and other entities to submit bills on their behalf is unknown. More
         importantly, adequate safeguards do not exist to ensure that a provider is really using the
         agency submitting claims using their billing number. States, like Medicare, cannot readily
         identify the actual party submitting a claim nor can they identify the location from which
         claims were transmitted.1

         Florida is in the process of re-engineering their electronic claims program. They plan to
         use new technology to tighten controls and add additional safeguards to their electronic
         systems. The new system will log and verify the identity of the computer used to produce
         claims and the telephone line tied to that computer terminal. The new systems will also
         log and verify user passwords and provider numbers. Claims from unrecognized
         terminals, claims received over unauthorized telephone lines and those with invalid
         passwords and provider identification will be rejected from processing.

Claim Rejection

         We defined claim rejects as those manual or computerized functions that prevent a claim

         from being accepted into the claims processing system. Seven of the eight States we

         visited reject claims from entering their claims processing system if they contain “fatal

         errors.” Generally speaking, a fatal error is one that would prevent a claim from being

         posted to an eligible patient’s claim history file or to the history file of an enrolled

         provider. On average, about 15 percent of claims submitted for payment contain fatal

         errors. In Texas, 500,000 claims are rejected each month, Pennsylvania returns 13,000

         claim each day. 


         The most common fatal errors include missing or erroneous:


          <        provider and patient identification numbers,

          <        birth dates,

          <        diagnostic information, and

          <        prior authorization information. 


         Claims with fatal errors are rejected from the claims payment system. Seven of the eight

         States we visited do not assign claim control numbers to claims with fatal errors. 

         However, these States do have aggregate data as to the number of claims returned to

         providers each day due to a fatal error. 


         Claims rejected from processing are returned to the provider (or the provider’s agent)

         along with information about the type of error that causes the claim to be rejected. The

         provider (or their billing agent) must correct the identified critical error and resubmit the



         1
                 Additional information concerning electronic claim safeguards and vulnerabilities can be found
in       Medical Billing Software And Processes Used To Prepare Claims. OEI-05-99-00100.

Claims Processing Safeguards                            7                                         OEI-05-99-00071
         claim. In many States, a claim is rejected from further processing when the first critical
         error is found. Consequently, claims resubmitted for processing may also be returned
         because they contain other critical errors. The submit and reject cycle is repeated until all
         critical errors are resolved.

         Unlike the other seven Medicaid programs in our sample, Maryland accepts all claims for
         processing. An internal control number is assigned to every claim the Maryland Medicaid
         program receives. The entire claim will be processed to completion even if no payment
         will be made due to fatal billing errors. In Maryland, all claims complete the entire
         processing cycle. At the end of the claims process, the provider is notified of all errors
         found on the claim. It is the provider’s responsibility to correct all fatal errors and non-
         fatal errors and to re-submit the claim for payment. There is insufficient information and
         data to determine whether one method is better than the other.

         In most States, claims for services that require prior authorization must contain the unique
         prior authorization number assigned by the approving agency/individual. If this number is
         not on the claim it will reject and no payment will be made.


CLAIMS ADJUDICATION SAFEGUARDS

         Claims that successfully enter the claims processing system are assigned an internal control

         number that is used to track processing, adjudication decisions and payment information. 

         Claims accepted for processing are subjected to prepayment reviews, concurrent care

         reviews, limitation edits, relationship edits, audits and medical review. 

         Claims processing safeguards help to ensure that the services listed on a claim are:


           <       covered Medicaid services,

           <       medically necessary services, and

           <       properly adjudicated. 


         Provider and procedure flags, concurrent reviews, automated edits, manual reviews,

         utilization and medical reviews, audits and payment suspension are claims processing

         safeguards used by State Medicaid programs. 


Prepayment Provider Flags

         Provider flags help States identify claims from problematic providers and problematic
         services. Flags interrupt the claims processing cycle until claim information is manually
         reviewed by Medicaid employees. Flags are prepayment claims processing safeguards
         that help to ensure proper adjudication of a claim and compliance with Medicaid policy
         and procedures. They often involve obtaining and reviewing additional medical
         information, contacting third parties and analyzing past patient and/or provider claim
         histories.


Claims Processing Safeguards                        8                                     OEI-05-99-00071
         In the eight States we visited, nearly all of the claims flagged for prepayment review
         involved providers who:

         <	        Were the subject of an ongoing investigation that may involve a substantial
                   overpayment,

         <	        Were found to be billing improperly and had been advised to correct their aberrant
                   billing practice(s),

         <         Provided excessive and unnecessary services, and

         <         Had unusual shifts in their claim volume or claim charges.

         In most States, very few providers are ever flagged for prepayment review. At the time of
         our visit, Texas had none, Oregon and Louisiana had less than 3 and Florida had about 30.
         In Florida, the State’s Medicaid program integrity unit identified and requested flags on
         more than 30 providers with specific problems ranging from excessive services to potential
         fraud. Louisiana reviews diagnostic codes, procedure codes, patient visits, prescriptions
         and other criteria to identify providers whose claims differ substantially from their peers.
         These “outlier” providers are flagged for prepayment review to ensure that the claims they
         submit are properly billed and adjudicated. Florida, Illinois and Louisiana have flags that
         identify new providers with “fast starts.” Fast starts include new and established providers
         whose claim volume increases dramatically in a relatively short period of time. Only one
         of our eight States withholds payment until they have researched the cause of the increase
         in billing.

         Providers flagged for prepayment review will have their claims reviewed until Medicaid is
         sure that unacceptable billing practices have been corrected. Some States use the results
         of their prepayment reviews to ensure that the problem(s) that led to the establishment of a
         prepayment flag have been corrected. If the reviews find that the problem no longer
         exists, the provider flag will be removed. Other States conduct a more in depth review
         before removing a provider from prepayment review. These States believe that they need
         to know whether the provider has truly corrected their aberrant practice(s) or simply
         changed billing to avoid detection.

         States appear reluctant to placing providers on prepayment review. They claim that
         prepayment reviews of provider claims are labor intensive, costly, increase claim
         processing time and exposes them [the State] to possible litigation. Some States felt that
         prepayment findings help them develop better policies and procedures to address
         deficiencies that necessitated the flag prepayment safeguard.

Prepayment Procedure Flags

         Procedure specific flags suspend, for manual review, any claim containing the flagged
         procedure code(s). Procedure flags are more common than provider flags. In Illinois,

Claims Processing Safeguards                        9                                    OEI-05-99-00071
         claims for anesthesia reimbursement are suspended from the payment system for
         prepayment review. Illinois also flags claims that appear to contain excessive durable
         medical equipment and supplies. Some States believe that procedure specific flags are
         easily circumvented and that providers find ways around the flags and avoid prepayment
         scrutiny of their claims.

         Oregon and Texas conduct an in-depth audit of recent claims before removing providers
         from prepayment review. These audits help to ensure that the problems that resulted in
         the provider being placed on prepayment review have been corrected. They help ensure
         that the provider has actually corrected their aberrant billing practices and not simply
         found a way around Medicaid safeguards.

Concurrent Reviews

         Concurrent reviews examine specific claims to determine whether services are medically
         indicated and being provided in the appropriate setting for care. They are conducted while
         patients are receiving services and help minimize overpayments to facilities and providers.
         Concurrent reviews recognize that under some circumstances obtaining prior approval
         may delay patient care. Concurrent care reviews are conducted while medical services are
         being provided.

         Of the eight States in our sample, only Pennsylvania uses concurrent care reviews.
         Pennsylvania uses concurrent reviews to determine the medical necessity of admissions to
         mental health facilities. The Pennsylvania policy ensures that those in need would have
         access to care and those who did not need this type of care would get the appropriate level
         of care. Pennsylvania examines medical records and other information to determine
         whether a patient’s hospitalization was medically indicated. The State also determines
         how many days of inpatient care it will authorize for payment.

         After Pennsylvania instituted concurrent care reviews they saw a decrease in the volume of
         claims for inpatient mental health services. Payments for mental health admissions in
         Pennsylvania fell and the length of inpatient stays also decreased. Pennsylvania believes
         that concurrent reviews help identify medically unnecessary hospitalizations for problems
         related to mental health. The State found that many of the services patients received while
         institutionalized could be provided safely in another setting.

Automated Edits

         For this study, we defined automated edits as those claims’ processing safeguards that are
         coded into a State’s Medicaid claims processing system. Automated edits do not suspend
         claims from the processing cycle for manual review. Decisions on whether to pay or deny
         a claim are derived from hard logic programmed into the claims processing system.
         Automated edits check the quality of data on claims submitted for payment. They help
         ensure that the services billed by providers are properly processed and paid in accordance
         with Federal and State laws, regulations and policies.

Claims Processing Safeguards                     10                                    OEI-05-99-00071
         Today, States rely more and more on automated decisions during the claim processing
         cycle. Most edit safeguards use hard coded logic to make adjudication decisions about
         claims and services submitted to Medicaid for payment. The States we visited believe that
         automated edit safeguards improve claim processing times and are more cost effective
         than manual reviews of claim data. We categorized edit safeguards into three groups:
         Quality of data edits, relationship edits and limitation edits.

         Quality of data edits deny entire claims, or specific services on a claim, because the claim
         contains invalid or missing data needed for processing. Unlike rejects, that deny claims
         before they are assigned an internal control number, quality edits apply to claims assigned
         an internal control number and accepted for processing.

         Quality of data safeguards, in the eight States we visited, automatically deny payment for
         services containing invalid, or missing data. Claims containing invalid dates of service or
         missing dates of service, invalid or missing diagnostic or procedure codes and other key
         information required for accurate processing are denied by claims processing software.
         No attempt is made to resolve the data error. Claims are processed to completion and the
         provider is notified as to what items edited during process. The provider is also notified
         as to how much Medicaid paid for items and services that did not edit.

         Limitation edits are hard coded computer program logic that analyze current, and past,
         claim data to arrive at decisions concerning whether or not to pay for a service.
         Limitation edits ensure that duplicate payments are not made. They automatically deny
         non-covered drugs and services. They deny payment for excessive services ( i.e., one
         service every 7 days) and for services that exceed annual maximum allowed limits. They
         identify services and procedures included in the global payment made for certain surgical
         procedures to name just a few functions of that limitation edits perform.

         In Louisiana, limitation edits are used to limit the number of echocardiograms that State’s
         Medicaid program will pay for during a pregnancy. Services in excess of the allowed
         number are automatically denied by their claims processing system. In Maryland,
         limitation edits are used to ensure that the number of pre-authorized services being billed
         does not exceed the number that was actually authorized. For example, if the State
         authorized 10 services but the claim is for 12 services, the system will deny 2 services for
         being in excess of the authorized amount. If less than 10 services are billed, the State pays
         the lower number.

         Relationship edits use patient history information and current claim information to ensure
         that services being billed do not conflict with past services. They also ensure that the
         services being billed were provided in the appropriate setting. All of the States we visit
         use hard coded computer program logic to analyzes current, and past, claim data. Most
         services, that fail relationship safeguards, are automatically denied payment in most State
         systems. Services not automatically denied will be suspended from the claims processing
         cycle for manual review by trained specialists before the claim is adjudicated.


Claims Processing Safeguards                      11                                     OEI-05-99-00071
         Relationship safeguards identify inconsistencies on the claim being submitted. They also
         identify services that appear in conflict with past services received by a Medicaid patient.
         Relationship edits ensure that the sex of a patient agrees with the medical procedures
         being billed. They also identify and properly adjudicate claims for once in a lifetime
         services. For example, relationship edits identify and deny male patients receiving
         hysterectomies. They also identify and deny patient’s who have had their appendix or
         tonsils removed more than once.

         In most States, reviewing edits to determine their effectiveness is an ongoing process. In
         Louisiana, reports on each edit in their system are generated daily and weekly. The
         weekly edit report lists all edits in Louisiana’s claims processing system and provides data
         as to the number of times a claim or service is edited for each reason. Edits that reject too
         many or too few claims or services are re-evaluated to determine if they were properly
         implemented. Edits on the weekly report are then reviewed and analyzed by the State
         Agency component responsible for the creation of the edit and having responsibility for
         policy in the program area.

         Illinois, like most States we visited, reviews all edits (including those that produced no
         claim or line item edits) on an ongoing basis to ensure that their claims processing edits
         function properly. If the edit is not catching any claims or services, Illinois check to be
         sure the edit was properly designed and implemented. If the edit failed due to improper
         design, it will be re-designed and remain in the system. If the edit was properly designed
         and has outlived its usefulness, the edit can be turned off or removed from the system.

         Effective edits appear to be a collaborative effort involving policy, program integrity and
         other Medicaid departments. Some edits are required by HCFA and all States have these
         edits in their system. Most edits are developed by the State Medicaid programs in
         response to their specific needs or to address problematic areas. Some edits developed in
         one State may be of use to other States.

         The eight States we visited have anywhere from 500 to 2,000 edits in their claims
         processing systems.2 On average, about 20 percent of claims submitted for payment edit
         for one or more reasons. Oregon is in the process of re-engineering all its edit
         safeguards; dropping those that are ineffective, modifying other to improve their
         effectiveness and adding new edits to address emerging problems and new policies.
         Overall, the trend is for more hard wired (computerized) edits and less human intervention
         in the claims processing cycle.




         2
                   Numbers are approximate. States do not uniformly define what is an edit. Some States count as
         edits only those actions that occur during claims processing. Other States will count rejects, medical
         review and claims processing interventions as edits.

Claims Processing Safeguards                           12                                         OEI-05-99-00071
MANUAL CLAIM REVIEWS

         Medical, utilization and audit reviews are claim processing safeguards that interrupt the
         processing of a claim for manual review by a trained specialist. Staff specialists compare
         the claims with established program and medical policy, previously paid claims, and other
         claims to decide if Medicaid should pay for the services.

         About 20 percent of the claims processed by State Medicaid programs require manual
         reviews of the claim submitted and supporting documentation. A large number of the
         claims requiring manual review are for Medicare patients for whom Medicare is the
         primary payer and the State Medicaid program is the secondary payer.

Utilization and Medical Review

         State Medicaid programs suspend claims for manual review that appear to contain
         excessive or duplicate services. Utilization reviews compare the services being billed with
         past services provided to the patient. The reviewer decides whether the services being
         billed should be paid or denied. Two of the States we visited, use utilization review to
         confirm whether or not services on a claim are duplicates of previously processed services
         or non-duplicated services that should be paid.

         About 1 percent of the items suspended from claims processing are referred for medical
         review. Trained medical review staff examine claims and services that appear to be
         excessive, medically unnecessary or not meeting community standards of care. Medical
         review staff, composed of nurses, physicians and other specialists review these claims to
         ensure they meet locally accepted standards of medical practice. They may contact the
         provider for additional information before deciding whether to pay a claim as submitted or
         to deny some or all services billed. The final decisions on whether to pay or deny a service
         lies in their hands.

Audits

         For purposes of this study, we have defined audits as those manual functions that do not
         require decisions of a medical nature. Examples of audits include manual pricing of
         specific services, reviews to ensure certificates of medical necessity accompany some
         services and reviews of services requiring additional supporting documentation.

         In Pennsylvania, audits help identify patients who have other health insurance or who may
         be eligible for workman’s compensation or other payments to cover the cost of their
         medical care. Clerical staff examines claims requiring additional documentation. If the
         required documents are not attached they will request it from the provider or deny the
         service(s).




Claims Processing Safeguards                     13                                     OEI-05-99-00071
         Many of the States in our sample use audits, utilization reviews and medical reviews to
         increase their visibility in the field and to enhance their safeguard efforts. California
         obtains medical records and other evidence needed to verify all of the items on a claim.
         Florida and Louisiana expand the scope of their inquiry beyond the claim in process and
         obtain medical and other records to support all claims paid during a specific period of
         time.


PAYMENT SUSPENSIONS

         All of the States in our sample can suspend payments to providers. Under what conditions
         and when suspensions take place differs from State to State. The procedures for
         suspending payments also vary widely. In Louisiana, Florida and Texas payments to
         providers can be stopped as soon as there is reasonable evidence to indicate an
         overpayment may exist. Some States suspend payments when evidence suggests fraud or
         an overpayment has been established. Other States only suspend payment when there is a
         civil or criminal indictment.




Claims Processing Safeguards                     14                                     OEI-05-99-00071
                         OPPORTUNITIES FOR
                            IMPROVEMENT

         The primary purpose of claims processing safeguards is to ensure that claims submitted for
         payment are properly adjudicated. Claims processing safeguards can also be used to
         detect fraudulent or abusive providers and to identify problematic Medicaid policies.

         Opportunities for improving claims processing safeguards exist. Based on our prior
         studies and information gathered during this study, we would encourage States to consider
         the following opportunities for improving their Medicaid program safeguards:

         Establish a system that identifies all third party billers/agents and the physicians using
         their services.

         The ability to know who is authorized to bill on behalf of a provider can help eliminate the
         misuse of provider numbers by clinics and third party billing agents. Medicaid programs
         that receive claims from agents not listed as authorized should investigate the reason. If
         the provider failed to notify them of a change in billing agent, Medicaid files could be
         updated. If the claim is found to be unauthorized, Medicaid may wish to refer a case for
         potential criminal investigation, contact the billing agency to determine why the error
         occurred and to secure a plan to prevent future errors. Billing agents/agencies with
         excessive problems should be banned from submitting claims to the Medicaid program.3

         Reduce the “hassle factor” by providing providers with a complete list of all critical
         errors on a claim.

         Returning a claim to a provider more than once because it contains fatal errors that
         prevent a claim from entering the claims processing system is costly. Medicaid systems
         should identify all fatal errors on a claim and notify the provider of all errors at one time.
         This would help avoid third and fourth claim submissions.

         Use reject and edit data to identify problematic providers.

         States have the opportunity to use claim reject and edit data to improve claim processing
         safeguards, to clarify policies and to identify providers who may need additional training
         on Medicaid policies and claim submission requirements. Edit and reject data can also be
         used to identify providers and billing agents who may be trying to defraud their systems.




         3
                 Additional information about billing companies and system vulnerabilities can be found in
         Medical Billing Software and Processes Used to Prepare Claims. OEI-05-99-00100.

Claims Processing Safeguards                           15                                         OEI-05-99-00071
         Use edit, utilization, medical and audit data to identify problematic policies and
         procedures.

         A number of States in our sample have successfully re-engineered their Medicaid policies
         and procedures using information obtained from edits. An opportunity exists for all States
         to establish a feed back system that links personnel handling edit resolution with policy
         personnel and with program integrity staff. Information about how edits work or do not
         work can be used in decisions concerning whether to delete, add or modify an edit. They
         can be used to identify policies and procedures that may need to be re-engineered. And
         finally, information obtained in the resolution of edits may indicate the need for a referral
         for investigation.

         Improve front end worker sensitivity to potential fraud and abuses issue by providing
         ongoing training.

         Medicaid staff involved in claims processing (those who develop claims for additional
         information to resolve edits and those who review medical records) are in position to spot
         potential fraudulent and abusive practices. These staff need to know the difference
         between fraud and abuse and when problematic situations should be referred for
         investigation.4 With proper training the role of Medicaid staff in spotting and reporting of
         potential fraudulent and abusive practices can be improved.


AGENCY COMMENTS

We received comments on this report from HCFA. The HCFA believes that the opportunities for
improvement described in this report provide valuable information that will be shared with the
State Medicaid programs. The full text of HCFA’s comments can be found in Appendix A.




         4
                  Additional information on how to improve the handling of fraud and abuse allegations can be
         found in our report entitled, Carrier Fraud Units. OEI-05-00470.

Claims Processing Safeguards                           16                                         OEI-05-99-00071
                                  APPENDIX            A




                               HCFA Comments on this Report 





Claims Processing Safeguards                17                  OEI-05-99-00071
Claims Processing Safeguards   18   OEI-05-99-00071
Claims Processing Safeguards   19   OEI-05-99-00071
